NO.
IN THE SUPREME COURT OF THE UNITED STATES
JING SHU ZHENG,
Petitioner,
v.

CHRISTINA ELLIS and JONATHAN
ELLIS, Relators; ex rel.
United States of America,
Respondents.

§
§
§
§
§
§
§
§
§
§
§

On Petition for Writ of Certiorari to
THE

United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE OF PETITION FOR WRIT OF CERTIORARI
Pursuant to S. Ct. R. 29(5)(c) and 28 U.S.C. § 1746, I hereby certify under penalty of
perjury under the laws of the United States of America that the following is true and correct:
On August 11. 2020.1 served the following individuals with a copy of the accompanying
PETITION FOR WRIT OF CERTIORARI, together with any and all of its appendices and other
attachments, by placing same in a properly addressed envelope with first-class postage prepaid
and depositing the envelope with the United States Postal Service:
David Olshan, Esq.
/
Dawn R. Miller, Esq.
Nevada Legal Services, Inc.
530 South 6th Street
Las Vegas, NVS9101
Telephone (702) 386-0404 ext. 111
Facsimile (702) 388-1641
dolshan@nlslaw.net
djensen@nlslaw.net
Attorneys for Respondents Christina Ellis and Jonathan Ellis

Executed on August 11, 2020.

fwf U. VucMje/TrOzeXb
R. Duane Frizell, Esq.*
Frizell Law Firm
400 N. Stephanie St., Suite 265
Henderson, Nevada 89014
Telephone (702) 657-6000
Facsimile (702) 657-0065
DFrizell@FrizellLaw.com
*Application for Attorney Admission Forthcoming
for Pro Bono Publico Service „

RECEIVED
AUG 1 9 2020
gggfy°EFJoHuERCTLSRsK

